Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Austin, Arkansas, Police Department 
GR-80-00-010
May 5, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Austin, Arkansas, Police Department (Austin).  The purpose of the grants is to enhance community policing.  Austin was awarded a total of $246,150 to hire two full-time and six part-time police officers.  They were also required to redeploy the equivalent of 0.7 of an existing full-time officer from administrative duties to community policing.
	
	We reviewed Austin's compliance with eight essential grant conditions.  We found Austin did not comply with six of the eight conditions:  hiring of officers, local matching funds, reimbursement requests, plan for retaining officers, officer redeployment, and periodic reports.  

Austin employed one full-time and two part-time officers prior to the grant award date of December 1, 1995.  By accepting the grant, the city agreed to hire one additional full-time and three additional part-time officers, resulting in seven officer positions for its department.  The city did not increase its police department with four additional officers. 

	Austin did not document a local match of $30,772, which is the reconstructed match based on actual fringe benefits.

	Austin withdrew excess grant funds of $44,593 and placed the funds in the city's general fund.  Thus, excess grant funds were commingled with the other city funds.

	Austin did not develop a retention plan for continuing the employment of the grant-funded officers at the end of the grant period.

	Austin received $16,624 from a MORE grant to allow redeployment to community policing but could not substantiate that a 0.7 officer position had been redeployed.  Also, the city did not have documentation for how much, if any, community policing resulted from the civilian administrative position that the grant funded.

	Austin had not submitted Financial Status Reports after September 1998, and, of the reports submitted prior to that time, most were not accurate or not timely.
In addition to not meeting six of the eight essential grant conditions, we noted weaknesses in other areas as identified below.  As a result, we question $119,876 and recommend an additional $126,274 be put to better use. 1

Austin submitted a UHP application that overstated fringe benefits, resulting in an overstatement of the grant by $16,035 on the UHP and $8,178 on the UHP supplement.

	Austin submitted a MORE application that erroneously represented the civilian administrative position workload.  Furthermore, we did not find that the Austin Police Department's workload warranted 0.7 of a full-time civilian administrative position.

	Austin drew $103,252 for UHP grant-funded officers from July 7, 1996, through January 20, 1999, but could not document that these were sworn officers.

	Austin did not provide community-policing training for its grant-funded officers.
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.